Tr

@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Bax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 20-1120

MELISSA BELGAU, et al.,
Petitioners,
Vv.
JAY INSLEE, in his official capacity as
Governor of the State of Washington, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GOLDWATER
INSTITUTE AND NATIONAL TAXPAYERS UNION AS AMICI CURIAE SUPPORTING
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 3812 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of March, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska wz Chih
RENEE J. GOSS: 0. ( dud aw é

Notary Public

My Comm. Exp. September 5, 2023

 

 

Affiant 40718
